No.

 

IN THE
SUPREME COURT OF THE UNITED STATES

Travis Tuggle, Petitioner,
v.

United States of America, Respondent
CERTIFICATE OF SERVICE

I, Lisa S. Blatt, counsel for the Petitioner and a member of the Bar of this Court,
certify that, on October 8, 2021, three copies of the Petition for a Writ of Certiorari in the
above-captioned case were sent by third-party commercial carrier for delivery overnight
and one copy was sent by electronic mail to the following counsel:

Brian H. Fletcher

Acting Solicitor General of the United States
U.S. Department of Justice

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

(202) 514-2217
supremecourtbriefs@usdoj.gov

Counsel for Respondent

I further certify that all parties required to be served have been served.

Ya < Fbf)y-

LIsAS. BLATT

Counsel of Record
WILLIAMS & CONNOLLY LLP
725 Twelfth St., N.W.
Washington, DC 20005
(202) 434-5000
Iblatt@we.com
